      MIDWEST REGIONAL OFFICE
             Limited Audit of Financial and Administrative Controls


                                        INTRODUCTION
The Office of Inspector General conducted a limited audit of the financial and
administrative controls of the Midwest Regional Office (MRO). The audit procedures
were limited to interviewing MRO staff, reviewing supporting documentation, and
conducting limited tests of transactions. The purpose of the audit was to provide the
Commission with negative assurance that the internal controls were adequate,
implemented economically and efficiently, and in compliance with Commission policies
and procedures.1 The audit was performed in accordance with generally accepted
government auditing standards during September 1999.



                                        BACKGROUND
The Midwest Regional Office (MRO) in Chicago, Illinois, administers Commission
programs in the midwestern portion of the United States. In carrying out its
responsibilities, the MRO exercises a broad range of financial and administrative
functions, including maintaining time and attendance records; procuring supplies and
services; arranging for staff travel; maintaining an inventory of property; and recording
budgeted and actual expenditures of the office.



                                       AUDIT RESULTS
During our limited audit, we identified one material issue. The Office of Administrative
and Personnel Management (OAPM) has not issued a contracting officer’s warrant to
MRO’s Associate Regional Director, as discussed below. Otherwise, our review
indicated that the MRO’s controls were generally adequate, implemented economically
and efficiently, and in compliance with Commission policies and procedures.
We discussed some non-material findings and informal recommendations with MRO
management. The MRO generally concurred with the findings and recommendations.




1
    Negative assurance means that no material internal control weaknesses came to our
    attention during our limited audit.


M I D W E S T R E G I O N AL O F F I C E ( AU D I T 3 0 7 )           OCTOBER 29, 1999
                                                                                   Page     2



CONTRACTING AUTHORITY
         The MRO’s Associate Regional Director signs purchase orders when the
         Regional Director is not available. He has not been issued a warrant (SF 1402)
         or received training as a contracting officer. In a memorandum dated February
         12, 1998, the Regional Director asked OAPM to issue a warrant, but OAPM has
         not yet acted on the request.

Recommendation A
         OAPM should issue a contracting officer’s warrant to the MRO’s Associate
         Regional Director, as requested. It should ratify any MRO purchase orders
         signed without proper contracting authority (to prevent possible legal questions
         from arising). The MRO should provide training on contracting to its Associate
         Regional Director, in consultation with OAPM.




M I D W E S T R E G I O N AL O F F I C E ( AU D I T 3 0 7 )           OCTOBER 29, 1999
